OIG Audit Report GR-60-08-005

Office of Justice Programs Bureau of Justice Assistance Grant Awarded to City and County of Denver, Denver, Colorado
Audit Report GR-60-08-005
March 2008
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of the Adult Drug Court Implementation Grant No. 2004-DC-BX-0050 in the amount of $450,000 awarded by the Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the City and County of Denver (City). The purpose of the grant program is to design and assist states, state courts, local courts, units of local governments, and Indian tribal governments in developing and establishing drug courts for substance-abusing adults and juvenile offenders. Specifically, this grant seeks to implement effective, gender‑specific, cognitive behavioral substance abuse treatment services that identify and treat the root cause of substance abuse and addictions, and that address mental illness, with a program designed specifically for women engaged in prostitution.
 Since 1984, OJP has provided federal leadership in developing the nation's capacity to prevent and control crime, improve the criminal and juvenile justice systems, increase knowledge about crime and related issues, and assist crime victims. As a component of OJP, the BJA is dedicated to providing leadership and assistance in support of local criminal justice strategies to achieve safer communities through the reduction and prevention of crime, violence, and drug abuse; as well as the overall improvement of the criminal justice system. 
 The purpose of this audit was to determine whether reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant, and to determine program performance and accomplishments. As a result, we reviewed performance in the following areas: (1) grant funding, (2) budget management and control, (3) matching costs, (4) grant expenditures, (5) program income, (6) Financial Status Reports (FSRs) and Categorical Assistance Progress Reports (progress reports), (7) laws and regulations, (8) program performance and accomplishments, and (9) monitoring of subgrantees and contractors.  We determined that program income and subgrantee costs were not applicable to this grant. As shown in the table below, the City was awarded a total of $450,000 to implement the grant program. 
 TABLE 1. GRANT TO THE CITY AND COUNTY OF DENVER 
ADULT DRUG COURT IMPLEMENTATION GRANT PROGRAM


GRANT AWARD
AWARD START DATE 
AWARDEND DATE
AWARD AMOUNT


 2004-DC-BX-0050
 09/1/04 
 08/31/07 
 $450,000 


 TOTAL: 
 $450,000 


Source: Office of Justice Programs
We examined the City’s accounting records, FSRs, progress reports, and operating policies and procedures and found:

Unused grant funding totaling $80,027 that should be deobligated and put to better use.
Unsupported costs totaling $5,093 were charged to the grant.
Unauthorized costs totaling $4,316 were charged to the grant. 
Overpayments totaling $98 were made to a contractor. 
Required matching funds could not be supported resulting in questioned costs totaling $143,820.
 FSRs were not accurate.
Progress reports were not submitted timely. 
 The written strategy for sustaining the City’s Drug Court Program and the final evaluation report has not been submitted to OJP.

 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology are discussed in Appendix I. 



 




Return to OIG Home Page